WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-225

United States, ex rel. Stephanie Strubbe, et al.

v.

Crawford County Memorial Hosp. and Bill Bruce
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
[1] There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Ej I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

Liz,S

09/03/2019

(Type or print) Name

Alex P. Hontos
01 Mr.

Firm

❑ Mrs.

01 Miss

Dorsey & Whitney LLP

Address

50 South Sixth Street, Suite 1500

City & State
Phone

0 Ms.

Minneapolis, Minnesota

(612) 340-2600

Email

Zip

55402

hontos.alex@dorsey.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Angela L. Campbell, Michael Carroll, Jacob Schunk, and Noel J. Francisco.

